<html>
<title> - HEARING ON PENDING LEGISLATION HEARING BEFORE THE COMMITTEE ON VETERANS' AFFAIRS UNITED STATES SENATE ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[Senate Hearing 110-378]
[From the U.S. Government Printing Office]


                                                        S. HRG. 110-378 
 
                        HEARING ON PENDING LEGISLATION 

                                  HEARING 

                                BEFORE THE 
                     
                       COMMITTEE ON VETERANS' AFFAIRS 
                           UNITED STATES SENATE 

                         ONE HUNDRED TENTH CONGRESS 
                               
                                FIRST SESSION 
                                -----------
                               
                                NOVEMBER 14, 2007 
                                   ---------
          Printed for the use of the Committee on Veterans' Affairs 

Available via the World Wide Web: http://www.access.gpo.gov
  /congress/senate 


                                  ----------
                        U.S. GOVERNMENT PRINTING OFFICE 
41-912 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























                        COMMITTEE ON VETERANS' AFFAIRS 

                           DANIEL K. AKAKA, Hawaii, Chairman 

JOHN D. ROCKEFELLER IV, West Virginia RICHARD BURR, North Carolina, 
PATTY MURRAY, Washington Member         Ranking 
BARACK OBAMA, Illinois                ARLEN SPECTER, Pennsylvania              
BERNARD SANDERS, (I) Vermont          LARRY E. CRAIG, Idaho                    
SHERROD BROWN, Ohio                   JOHNNY ISAKSON, Georgia                          
JIM WEBB, Virginia                    LINDSEY O. GRAHAM, South Carolina 
JON TESTER, Montana                   KAY BAILEY HUTCHISON, Texas 
                                      JOHN ENSIGN, Nevada 
                      
                         WILLIAM E. BREW, Staff Director 
                      LUPE WISSEL, Republican Staff Director 




























                             C O N T E N T S 

                                -------
                               

                               SENATORS 

                                                                   Page 
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii ........... 1 
Burr, Hon. Richard, Ranking Member, U.S. Senator 
  from North Carolina ............................................... 2 
Murray, Hon. Patty, U.S. Senator from Washington .................... 3 
Sanders, Hon. Bernard, U.S. Senator from Vermont .................... 5 
Tester, Hon. Jon, U.S. Senator from Montana ......................... 5 
Craig, Hon. Larry E., U.S. Senator from Idaho ....................... 9 





















                      HEARING ON PENDING LEGISLATION 
                                -----------

                         WEDNESDAY, NOVEMBER 14, 2007 

                                             U.S. SENATE, 
                               COMMITTEE ON VETERANS' AFFAIRS, 
                                                       Washington, D.C. 

    The Committee met, pursuant to notice, at 9:33 a.m., in room 
562, Dirksen Senate Office Building, Hon. Daniel K. Akaka, Chairman 
of the Committee, presiding. 
    Present: Senators Akaka, Rockefeller, Murray, Brown, Tester, 
Sanders, Burr, Craig, and Isakson. 

      OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII 

    Chairman AKAKA. The Senate Committee on Veterans Affairs will come 
to order. I want to say aloha to everyone and welcome to today's markup 
of legislation that is pending before the Committee on Veterans 
Affairs. 
    This is our second markup of this session, the first with Senator 
Burr serving as our Ranking Member, and it is focused exclusively on 
health care matters. We have four items on the agenda. 
    Before we begin the actual markup, I have a comment on the CBS News 
report on what they are calling the ``veteran suicide epidemic.'' The 
report that the rate of suicide among veterans is double that of the 
general population is deeply troubling to me, and simply unacceptable. 
    I am pleased that earlier this month, President Bush signed into 
law the Joshua Omvig Suicide Prevention Act, legislation that we 
reported this summer. In light of the grim news in the CBS story, I 
hope that the sense of urgency which has guided the committee's 
extensive action on mental health issues this session will continue. 
    In particular, I am pleased that the Ranking Member and I have been 
able to find agreement on a comprehensive and very substantial mental 
health bill. For too many veterans, returning home from battle will not 
bring an end to conflict. They will return home, but the war will 
follow them in their hearts and minds. Invisible wounds are complicated 
and wide ranging and our solutions must rise to the challenge. 
    There is no question that action is needed. One in five Iraq war 
veterans are likely to develop PTSD, as studies have estimated, and 
this is but one aspect of the mental health challenges faced by 
veterans. 
    In April, the committee held a hearing on veterans' mental health 
concerns and on VA's response. We heard heart-wrenching testimony from 
the witnesses. Randall Omvig spoke of his son's suicide upon returning 
from Iraq. Tony Bailey spoke of his son's struggle with substance abuse 
and of his death. Patrick Campbell shared his own experience with PTSD 
and the experiences of his close friends. Witnesses urged us to learn 
and they urge us to act. 
    The provisions of this bill are a direct outgrowth of that hearing 
and the testimony given by those who have suffered with mental health 
issues and by their family members. This bill addresses the immediate 
needs of veterans by ensuring high-quality mental health services at VA 
facilities and in their communities. The bill also looks to the future 
with a renewed focus on research. 
    Also on the agenda is the Veterans' Pain Care Initiative. This bill 
would enhance the VA's pain care management program through better 
clinical practices and the coordination of research and education. The 
management of chronic and acute pain is especially critical today as 
advances in battlefield medicine have allowed many service members to 
survive injuries that otherwise would have been fatal. Many of these 
veterans now face conditions such as TBI and polytrauma. Effective pain 
management is an important part of improving the quality of life for 
all wounded veterans. 
    Senators Murray and Craig worked together on the legislation to 
establish Epilepsy Centers of Excellence within the VA health care 
system. We know of the elevated risk for seizures among veterans who 
have suffered a TBI. This underscores the need for better understanding 
of epilepsy and more effective treatment strategies. 
    Finally, we have Senator Brown�s legislation directed at fixing the 
problems associated with reimbursement procedures for veterans who 
receive emergency care at non-veteran VA facilities. His field hearing 
in Ohio unearthed issues with the transfer rules implemented by VA that 
control reimbursement. This bill will ensure veterans need not worry 
about where they are treated in an emergency. 
    In conclusion, I thank all the members for their participation and 
hope that we can move forward in the legislative process in a spirit of 
bipartisan cooperation. Thank you. 
    Now I will call on our Ranking Member for his remarks. 

             STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                    U.S. SENATOR FROM NORTH CAROLINA 

    Senator BURR. Aloha, Mr. Chairman, and thank you. 
    Chairman AKAKA. Aloha. 
    Senator BURR. This is an incredibly important markup and the 
committee's attention on this legislation to address the health care 
needs specifically of our nation�s veterans. 
    First, I would again like to compliment the Senator from Ohio for 
his legislation to address a problem with the current payment structure 
for emergency care provided outside the VA health care system. I noted 
at our hearing in October that I thought this was a fine example of the 
way in which good legislation is produced and I am proud to support 
Senator Brown's initiative today. 
    Second, Mr. Chairman, I especially appreciate your willingness to 
work with me to improve a couple of the bills that we are considering 
today. As you know, our staffs have been in discussions about the pain 
care legislation, S. 2160. I look forward to working with you to ensure 
that before S. 2160 passes the Senate, it focuses the proper attention 
on the issue of pain management and the needs of our veterans who 
suffer from debilitating pain. I believe we can do so without getting 
too far down into the weeds of the everyday practice of medicine. By 
working together, I am sure that this goal can be accomplished. 
    In addition, Mr. Chairman, I want to thank you for working with me 
to make some changes to the mental health bill that is before us today. 
I am proud to be a cosponsor of the bill and I think we have made a 
number of improvements with the version that is before this committee 
today. Of course, I think we could make the bill even better by 
adopting some of the amendments that have been noticed, but I will wait 
until later on to talk about that. It is my hope that we can get an 
eighth member back in, Mr. Chairman, and we can very quickly get this 
bill passed. 
    But again, I thank the committee. 
    Chairman AKAKA. Thank you very much. Senator Murray? 
  
                     STATEMENT OF HON. PATTY MURRAY, 
                       U.S. SENATOR FROM WASHINGTON 

    Senator MURRAY. Thank you, Mr. Chairman and Ranking Member Burr. 
    Before I talk about the important bills that we are considering 
today, I, too, want to take just a couple minutes to talk about the CBS 
special news report that was on last night. I hope that everyone here 
had an opportunity to see that, and if you didn't, that you go back and 
take a look at it. I believe the second part is going to be tonight. It 
talked about a subject that is very tragic and really receives too 
little attention in our country today, and that is the number of 
veterans who are taking their own lives. 
    CBS did a 5-month investigation and found that 6,256 veterans 
committed suicide in 2005 alone--6,256. That is a death rate of about 
120 a week. That is twice the national average for other Americans. 
Even more importantly, it found out that veterans between the ages of 
20 and 24 that were most likely to serve in the War on Terror are 
taking their own lives at rates that are estimated between two and four 
times higher than the same age group in this country. 
    Those findings, I think, are just horrifying and they are really 
tragic, and Mr. Chairman, I hope it makes us refocus again on what we 
need to be doing to go out and find those young men and women and make 
sure they are getting the help and support they need in all of our 
communities. Truly, if these statistics don't wake up this country, 
nothing will. 
    Mr. Chairman, you talked about the hearing that we had and the 
testimony we had from Joshua Omvig and Justin Bailey, two veterans who 
tragically took their own lives after they returned home from Iraq. 
Their families� heartbreaking testimony and their advocacy did lead us 
to pass the Joshua Omvig Suicide Prevention Act that was the first step 
that I think we need to be taking. It was signed into law by the 
President last week and it was a commendable first step. 
    But if we watched that report, none of us, I think, can walk away 
from it saying we have done enough. I think we have to really look at 
what the cost and consequences of this war are, what we are doing to 
reach out. We need to wake up our neighbors, our communities, our 
employers, our schools, and have them look around and saying, is there 
anybody here that I can reach out to and bring in and make sure they 
get the help. And I really hope that this wakes up the White House and 
that they take a very tough stance and reach out and make sure we are 
getting the numbers so that we can follow up and do what we need to be 
doing here. 
    So, Mr. Chairman, I just wanted to mention this at the top of this 
and thank you and Ranking Member Burr and say we have got a lot more to 
do. 
    With that said, I do want to say that I look forward to working 
with you on the bills that are in front of this committee today and 
hope that we can get them passed to the President quickly. 
    I do want to thank Senator Craig for working with me on the 
Epilepsy Centers of Excellence bill that is being considered today. You 
know, our bill will simply ensure that the VA is prepared and equipped 
to deal with what is going to be one of the long-term impacts of 
traumatic brain injury. It is a topic we have had a lot of discussion 
on here. We establish six Centers of Excellence in the VA system. It is 
based on the successful MS Centers of Excellence and Parkinson's 
disease research and education clinics that are currently operated by 
the VA. We know very little about the long-term impacts of TBI today 
and it is too early to determine what they are for our veterans from 
Iraq and Afghanistan, but we do know from past wars that many of the 
injuries associated with service take years or even decades to develop, 
so we have to be doing what we can right now to be prepared for these 
veterans with traumatic brain injury and what they are going to be 
facing down the road. So I thank you very much, Mr. Chairman, for 
considering that. 
    And one final comment. I am deeply concerned, at a time when we 
face so many challenges with our veterans, and this committee, in fact, 
has passed two good bills. Mr. Chairman, I heard you out on the floor 
this week trying to get them up for a vote. But we all know that the 
President made a splash by actually announcing a head of VA on October 
30, General James Peake, but it has been 2 weeks and this committee 
still hasn�t gotten the papers, so we can't move forward on considering 
this nomination until we get those. Mr. Chairman, I hope that the White 
House moves expeditiously so that we can get that nominee in front of 
us so we can put somebody in charge of the VA at a time where we have a 
lot of critical issues that need to be addressed. 
    Thank you very much, Mr. Chairman. 
    Chairman AKAKA. Thank you very much, Senator Murray. 
    Senator BURR. Mr. Chairman, could I inform Senator Murray that it 
is my hope that all of that paperwork will be here on Thursday. 
Clearly, the White House has expedited the FBI report. Until that 
officially comes up, the questionnaire that goes from the committee--but 
we are working on an expedited timeframe. It is my hope that the 
Chairman is in agreement that when we return from Thanksgiving, we 
would have an opportunity to potentially have a hearing and do a 
confirmation. 
    Senator MURRAY. Thank you very much. 
    Chairman AKAKA. I am glad to hear that. We will move as 
expeditiously as we can. 
    Noticing that we have eight members now present, I invite a motion 
to take up the agenda items. 
    Senator SANDERS. So moved. 
    Senator MURRAY. Mr. Chairman�� 
    Chairman AKAKA. It has been moved. Is there a second? 
    Senator BURR. Second. 
    Chairman AKAKA. It has been seconded. The motion has been made and 
seconded. Is there any discussion on the motion before we act? 
    Senator TESTER. Mr. Chairman? 
    Chairman AKAKA. Senator Tester? 
    Senator TESTER. The motion includes all four of the bills? 
    Chairman AKAKA. Yes. 
    Senator TESTER. Is it appropriate now for me to make a statement 
and potentially offer an amendment? 
    Chairman AKAKA. Let me complete my statement. 
    Senator TESTER. OK. 
    Chairman AKAKA. The vote is on a motion that the committee approve 
the agenda items en bloc, subject to any subsequently adopted 
amendments. All those in favor, say aye. 
    [Chorus of ayes.] 
    Chairman AKAKA. Opposed, say no. 
    [No response.] 
    Chairman AKAKA. The ayes have it and the motion is agreed to and 
the agenda items are ordered reported to the Senate, subject to any 
amendments adopted during the markup. 
    Senator Tester? 
    Senator TESTER. Mr. Chairman, I would assume by looking at the 
agenda that the only bill that there are amendments for is S. 2162, is 
that correct? 
    Chairman AKAKA. That is correct. 
    Senator TESTER. So I will address that bill at this point in time 
and I want to echo my comrades here on this committee for you holding 
this markup. 
    I have an amendment that I want to offer at this point in time. 
This amendment will allow the VA to implement a system of automatically 
enrolling into the VA system the members of the National Guard who are 
demobilizing after they have served in a combat zone. According to the 
National Guard Association of the United States, only about 55 percent 
of the demobilizing Guardsmen register in the VA system. Those who do 
not immediately enroll often encounter delays of several days when they 
first try to get access to health care from the VA. 
    If a Guardsman does not register with the VA at the time of 
demobilization and decides to seek care from the VA, he or she must 
first go to a regional office. In Montana or other rural areas, this 
requires a significant time commitment and travel distance just to 
register. It then takes a day or two to get the name entered in the 
data base, and finally the Guardsman must go to a central VA facility 
for initial exam. In all, the process may take several days and involve 
considerable cost and time, all of which are disincentives for health 
care. And in the case where the Guardsman's needs are mental health 
services, it may be such a disincentive that he or she may choose not 
to get health care at all. 
    I have had a visit with the Ranking Member on this committee, 
Senator Burr, and correct me if I say anything wrong, Senator Burr. He 
has agreed to work with my staff, his staff, and the Chairman's staff 
to resolve some issues that occur in this amendment, and I will just 
say that I have agreed to do that and I will withdraw the amendment, 
but I want to make one statement. 
    This amendment is the right thing to do. I don�t think there is 
anybody on this committee that doesn't want to see people who fight for 
this country on the battlefield to get VA benefits. I look forward to 
working with Senator Burr and Senator Akaka on getting this amendment 
onto the first available bill on the floor that we can get it onto. I 
hope that we hold the bureaucracy's feet to the fire with this and 
don't just take excuses for them. We will give them the resources they 
need and get these people in the VA system. 
    So with that, Mr. Chairman, I withdraw this amendment. I look 
forward to working with Senator Burr and you to make this amendment a 
reality. 
    Senator BURR. Mr. Chairman? 
    Chairman AKAKA. Thank you very much, Senator Tester. Thank you for withdrawing it. I just want you to know that we will work with you at 
fixing it, as well. 
    Senator TESTER. Thank you. 
    Chairman AKAKA. Senator Burr? 
    Senator BURR. Mr. Chairman, thank you, and I want to thank Senator 
Tester. I think the spirit of what he is proposing, I think he stated 
very correctly. We all share the intent of this. 
    I am committed to work with you on the language and to accomplish 
the intent. As I shared with Senator Tester this morning, one of the 
challenges that we have as we look at the VA is to figure out how to 
better enable the VA to manage the population that they have got. I 
think it is safe to say if automatic enrollment is right for the Guard, 
then it would be right for everybody else, too. And all of a sudden, 
with the automatic enrollment, potentially the rolls are so large and 
the VA's inability to identify how many people are going to access 
entry points is so difficult that it would be extremely tough for them 
to get it right. 
    So I think there are ways that we can accomplish the spirit of what 
Senator Tester is trying to do, working with other members of this 
committee, working with the Veterans Administration, and figure out 
exactly how to structure it in a way, because I share, coming from a 
State that has many rural areas to it, that sometimes we think it is 
fairly easy for an individual to enroll or get health care, and you are 
right if you have transportation or if you know where to go, and that 
is not always the case. 
    So I want to make sure that what we create, they can manage, and 
what we create doesn't implode something else in the delivery system 
and create another problem for us. 
    Chairman AKAKA. Thank you, Senator Burr. 
    Senator BURR. Mr. Chairman, if nobody is seeking recognition, I 
would like to--
    Chairman AKAKA. I was going to ask you to offer your amendment. 
    Senator BURR. Thank you. It is my intention to offer an amendment, 
Mr. Chairman, and I am, in the spirit of this committee, also going to 
withdraw my amendment. But as Senator Tester said, he thinks he is 
right. I think I am right, too, and it was my intent to have everybody 
vote on it. I am not going to do that, but I think it is time, 
especially hearing you and Senator Murray talk about the CBS story, 
that we admit that as it relates to the mental health services, the 
system that we currently have our veterans in just doesn't work. It may 
work for some, but it clearly doesn't work for all. 
    What my amendment would do is very simple. It would create an 
option for veterans, call it Option B. Option A is in place today. You 
come out, you need mental health services, you have a rehabilitation 
schedule. The likelihood is you file a disability claim. Six months, 8 
months, 12 months down the road, your disability is approved and you 
get a check for everything back to the beginning. 
    The problem is you have got a veteran then challenged for, one, the 
health care that they need, and two, the cash that they need to 
survive. My option would say we leave it totally up to a veteran. You 
can enter that system. You can file a disability claim. You can roll 
the dice on when that comes due and then be approved for a monthly 
check. Or you can say, I am willing to delay filing my disability claim 
and I am willing to accept up to a year of the type of rehabilitation a 
medical professional tells me I need. And if I enroll in that 
rehabilitation, I get a cash stipend right up front. And every 90 days 
that they can verify that I have gone for treatment, I get another cash 
stipend. And if the treatment schedule is 6 months or if it is 9 
months, up to 12 months, I will delay filing my disability claim until 
I have completed the rehabilitation. 
   You see, the system today is not designed truly to make somebody 
well again because it is left up to them as to whether they come for 
the appointment. Now, Senator Murray, I know, is passionate about this. 
We have to find an incentive that encourages these veterans to actually 
come for their treatment. 
    My fear is that when they are strapped for cash, the likelihood is 
they will not show up for the appointment. As a matter of fact, 
Mr. Chairman, just in the Los Angeles Times yesterday, there was an 
in-depth article. I won't read it for everybody, but I will read two 
lines at the end of it that I think summarize it very well. 
    ``The months go by. One disability check comes and then the next, 
about $2,500 a month. Miller sees Barringer, the psychiatrist, but only 
occasionally.'' Sometimes you just have to look at the culture of a 
small town�I won�t name the State. Blake graduated from high school and 
had no future, so he joined the Marines and now he is home and has a 
steady income. Things are good. But sometimes, that is more of a 
negative than a positive, he said. Look at every time you go out to the 
mailbox and you get a disability check. It tells you how sick you are. 
    What we can do is we can offer veterans an option, a choice, 
something that they get the opportunity to exercise up front. Do I want 
treatment, rehabilitation, and recovery, or do I want the system that 
we have got right now where once I start getting my check, I am less 
likely, because it is permanent, to come in and seek treatment? 
    I would only challenge my colleagues, if you believe the system 
that we have today works, then don�t work with me. If you believe the 
system that we have today is broken and we have to change, then come 
with a better idea or help me to perfect this one, because I think our 
veterans deserve an option that is different than what we have 
currently got. 
    Plain and simple, the Dole-Shalala Commission came out and 
recognized it. The Disability Commission recognized it. The Disability 
Commission felt so strongly about focusing on the treatment of those 
with mental health, particularly PTSD, that they recommended that we 
condition the receipt of compensation on the receipt of treatment. 
Condition the receipt of compensation on the receipt of treatment. That 
is all we are doing. 
    We are actually saying, we are going to give you a cash incentive 
to be treated, to actually go to your appointment, to get the 
rehabilitation that we all agree you have to get if you want the 
outcome to be different. It is not to get around disability claims. It 
is not to get around a disability payment. It is to say, if we can take 
somebody from this level of disability and through rehab get them to 
this point, their quality of life is better because we have encouraged 
them, created the incentive, pushed them, challenged them to get the 
services they need. 
    I believe it is important. I believe it is important that we try 
something different. If this is not it, share with me what it is we 
need to do. But I think this certainly sets a marker out there that we 
are willing to think outside the box to make sure that our veterans get 
the type of treatment and that they are committed to actually go. 
    I thank the Chair. 
    Chairman AKAKA. I want to thank you, Senator Burr, for withdrawing 
your amendment, but I also want to urge you to introduce this amendment 
as a bill. When you do, I will tell you now that certainly I will hold 
a hearing on that so we can deal with it. 
    Senator BURR. Thank you, Mr. Chairman. 
    Chairman AKAKA. Thank you very much. 
    Senator MURRAY. Mr. Chairman, could I just comment? 
    Chairman AKAKA. Senator Murray? 
    Senator MURRAY. Senator Burr, I want to thank you for your trying 
to reach outside the box and deal with this issue, and I am glad you 
withdrew this and I hope, Mr. Chairman, that he does introduce it as a 
bill, that we do have the time to look at it. I would just tell you 
that for many of our veterans, it isn't the benefits check, it is that 
they are lost in a remote community and they have no idea why they go 
home and have nightmares or don't understand why they can�t remember 
where their keys are or why they feel that they are a different person 
and they really feel that this country doesn't understand them. That is 
why they often reach the end of their rope. 
    I think an important part of any package we put together has to 
have a better support system for families, and that is who we always 
leave behind in the VA. We take care of the veteran themselves. We talk 
about that all the time. But it is the mothers, the fathers, the 
sisters, the brothers, the wives, the husbands who really need the 
support network and who need to know how they can reach out when they 
see their loved one getting lost and not knowing where to turn. 
    So I will take a look at what you have offered. I would like to see 
it and see what the consequences are. I fear that if we tell someone 
they cannot seek a new claim for a year, that some of these men and 
women who come home who don't even understand what has happened to them 
will fear that a few months down the road, they will discover they have 
traumatic brain injury and they will be denied the ability to change 
any claim if they have already said that they have mental health 
conditions, and I don't want to put anything on someone that will tell 
them, I don't want to seek treatment for mental health. 
    So I think we have to be very cautious as we move forward and I 
urge this committee to look at all options, but I hope, Mr. Chairman, 
that what we really look at is how we are reaching out to family 
members themselves to give them the support they need to get that 
government in for care. 
    Chairman AKAKA. Thank you very much, Senator Murray. 
    Senator CRAIG. Mr. Chairman? 
    Chairman AKAKA. Senator Craig? 
    Senator CRAIG. Mr. Chairman, I am going to have to leave for 
another hearing. I wanted to ask unanimous consent that an opening 
statement that reflects the nominee that we are going to have before us 
in a few moments become a part of the record. 
    Chairman AKAKA. Without objection, it will be made a part of the 
record. 
    Senator CRAIG. Thank you. 
    Chairman AKAKA. Are there any other comments? 
    Senator BURR. Mr. Chairman, can I just respond to Senator Murray 
real quick? I just want to make two points. 
    Chairman AKAKA. Senator Burr? 
    Senator BURR. One, no veteran would have to give up his or her 
right to receive compensation. Veterans at any point could file their 
disability claim. However, the wellness stipend that I have talked 
about would only be paid if the veteran agrees to stay faithfully in 
the program and to hold off of the claims during that treatment. 
    Second, a veteran doesn't have to give up compensation in order to 
receive the wellness program. The stipend would be lower if the 
veteran is already in receipt of compensation, but this program is 
designed to encourage service-connected conditions to get treated, 
as well. There is no requirement that compensation be reevaluated at 
the end of the year if the treatment works, and the Institute of 
Medicine says it does, that this is very crucial, then the veterans 
will have a better life to live as they seek additional treatment. 
    I really want to stress with my colleagues, this is not a 
substitute, this is an option. This is to say to a veteran, here is the 
pathway. This is the one we have got today. You evaluate it. Here is 
another one. If this fits your condition, if it fits your expectations, 
if it fits your financial needs better, then the option is to choose 
it. At any time if you want to stop if you are in Option B, stop and go 
back and file your disability claim and eventually get a monthly 
payment, that is fine. 
    But I truly believe that we have to recognize the fact that today, 
for whatever host of reasons, that a person is seeing there are mental 
health services that are needed, they may start the first week, the 
first month, but over time, they begin to miss those appointments and 
we know--we know and the medical profession has proven that a 
satisfactory outcome for mental health involves a very regimented 
schedule of individuals receiving services. I want us to simply try 
something that encourages these kids to actually get those services. 
    Senator MURRAY. Mr. Chairman, I would commend that. I would just 
remind you that too many of our veterans have called for an appointment 
and haven't gotten one, so we have to make sure that we have enough 
resources available that they are not denied those services once they 
try to enter the VA. But I don't disagree with you that getting them in 
to get the counseling is absolutely critical. Finding a way to 
incentivize that and make it happen is truly important. 
    Chairman AKAKA. Thank you very much. 
    Well, I believe that concludes the amendments. 
    Before we adjourn this markup, I express my appreciation to each of 
the members of this committee as well as their staffs who have worked 
hard on this. In my opinion, we have produced a solid body of 
legislation that will benefit millions of veterans and their families. 
I extend a big thank you to the Ranking Minority Member and his staff 
for their contributions to this process. I look forward to continuing 
to work together with all of you in the weeks and months to come. There 
is much that remains to be done, but we have made a large step in the 
right direction. 
    After I adjourn this markup, which I will do shortly, we will 
reset the room and proceed to a hearing on a nomination. 
    This markup stands adjourned. 
    [Whereupon, at 10:07 a.m., the committee was adjourned.] 




                                    <all>
</pre></body></html>
